HHS/OIG, Audit -"Review of Medicare Contractor's Pension Segmentation Requirements Pennsylvania Blue Shield for
the Period Covering
January 1, 1992 to December 31, 1997,"(A-07-04-00169)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation Requirements Pennsylvania Blue Shield for the Period Covering
January 1, 1992 to December 31, 1997," (A-07-04-00169)
November 5, 2004
Complete
Text of Report is available in PDF format (806 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objectives of this review were to determine if Pennsylvania Blue Shield (PBS):  (1) implemented our prior audit
recommendation, and (2) complied with the pension segmentation requirements of the Medicare contract while updating Medicare
segment assets from January 1, 1992, to December 31, 1997.  We found that PBS implemented the recommendation
from the prior audit.  However, PBS did not have adequate controls to ensure that the Medicare segment was identified
in accordance with the Medicare contract, and the Medicare segment was not updated in accordance with CAS 412 and 413.  As
a result, as of December 31, 1997, PBS understated the Medicare segment assets by $1,214,985.  We recommended that
PBS increase the Medicare segment pension assets by $1,214,985 and recognize segment assets of $37,438,341 as of December
31, 1997.